Report No. D-2009-041           January 14, 2009




     Expeditionary Fire Support System and
   Internally Transportable Vehicle Programs
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest ideas for or to request future audits, contact the Office of the Deputy Inspector
General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703) 604-8932. Ideas
and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                       400 Army Navy Drive (Room 801)
                       Arlington, VA 22202-4704




Acronyms and Abbreviations
CDD                           Capability Development Document
EFSS                          Expeditionary Fire Support System
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
GDOTS                         General Dynamics Ordnance and Tactical Systems
IOC                           Initial Operational Capability
IOT&E                         Initial Operational Test and Evaluation
ITV                           Internally Transportable Vehicle
KPP                           Key Performance Parameter
MCCDC                         Marine Corps Combat Development Center
MCOTEA                        Marine Corps Operational Test and Evaluation Activity
MCSC                          Marine Corps Systems Command
RDT&E                         Research, Development, Test and Evaluation
SSA                           Source Selection Authority
SSAC                          Source Selection Advisory Council
SSEB                          Source Selection Evaluation Board
TEB                           Technical Evaluation Board
                                    INSPECTOR GENERAL
                                    DEPARTMENT OF DEFENSE
                                      400 ARMY NAVY DRIVE
                                 ARLINGTON, VIRGINIA 22202-4704


                                                                                    January 14,2009

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                  TECHNOLOGY, AND LOGISTICS
              NAV AL INSPECTOR GENERAL
              COMMANDER, MARINE CORPS SYSTEMS COMMAND


SUBJECT: The Expeditionary Fire Support System and Intemally Transportable Vehicle
         Programs (Report No. D-2009-04 1)

We are providing this report for your information and use. We performed the audit in response to
a request from Senator Carl Lev in, Chairman, Senate Committee on Armed Services. We
considered management comments on a draft of the report in preparing the final report.

Comments on the draft ofthis report conformed to the requirements of DoD Directi ve 7650.3 and
left no umeso lved issues. Therefore, we do not require any additional comments.

We appreciate the co urtesies extended to the staff. Questi ons should be directed to me at
(703) 604-92 00 (DSN 664-9200).




                                             Richard B. Jolliffe
                                             Assistant Inspector General
                                             Acquisition and Contract Management
                      Report No. D-2009-041 (Project No. D2008-D000AB-0091.000)
                                           January 14, 2009


                 Results in Brief: The Expeditionary Fire
                 Support System and Internally Transportable
                 Vehicle Programs
The Expeditionary Fire Support System (EFSS) is a             Federal Acquisition Regulation. Specifically,
direct-support weapon system for the vertical assault         Command source selection personnel did not
element of a ship-to-objective maneuver force. The            adequately document and disclose all technical
Internally Transportable Vehicle (ITV) program                evaluation criteria in the solicitation and did not
fields expeditionary vehicles to ground units to              prepare a price negotiation memorandum. As a
support various operations. The EFSS and ITV have             result, the Command’s source selection decision did
been developed for use with and transport in the              not meet Federal Acquisition Regulation tests of
MV-22 Osprey.                                                 fairness, impartiality, and equitable treatment.
                                                              The Marine Corps Systems Command internal
What We Did                                                   controls were not adequate. We identified internal
We determined whether contract competition and                control weaknesses over contract competitions and
program administration for the U.S. Marine Corps              the acquisition system’s program planning and
EFSS and ITV programs were in accordance with                 execution process.
the Federal Acquisition Regulation and supporting
DoD guidance. We conducted this audit in response
to a request from Senator Carl Levin, Chairman of
                                                              What We Recommend
the Senate Committee on Armed Services, who                   We recommend that the Commander, Marine Corps
forwarded constituent concerns made by a                      Systems Command improve specific contracting and
prospective EFSS/ITV subcontractor.                           acquisition internal controls highlighted in the
                                                              findings.
What We Found
                                                              Client Comments and Our
Although our audit did not substantiate most of the
constituent’s concerns, we found problems with                Response
EFSS and ITV program management and contract                  The Assistant Secretary of the Navy (Research,
award. The Marine Corps Milestone Decision                    Development and Acquisition) and the Commander,
Authority approved the entrance of the EFSS and               Marine Corps Systems Command provided
ITV programs into the Production and Deployment               comments in response to this report that disagreed
Phase (Milestone C) before the systems had                    with some report findings, but generally agreed with
demonstrated acceptable performance in                        the recommendations. The comments were
developmental test and evaluation. As a result, the           responsive.
schedule for initial operational capability has slipped
22 months for the EFSS and 17 months for the ITV,
while the average unit cost has risen by 86 percent
for the EFSS and by 120 percent for the ITV.
However, the Marine Corps has corrected most
EFSS and ITV technical problems as reflected in
2008 operational test and evaluation effectiveness
determinations.

The Marine Corps Systems Command did not award
the EFSS and ITV contract in accordance with the              EFSS and ITV


                                                          i
Recommendations Table
Client                                    No Additional Comments Required

Commander, Marine Corps Systems Command   A.1., A.2., A.3., A.4., B.1., and B.2.
Table of Contents

Results in Brief                                                   i

Introduction                                                       1

       Objective                                                  1
       Background                                                 1
       Congressional Request for Inspector General Audit          2
       Review of Internal Controls                                2

Finding A. Program Management                                      3

       Client Comments on the Finding                             12
       Recommendations, Client Comments, and Our Response         12

Finding B. Contract Award                                         14

       Client Comments on the Finding                             19
       Recommendations, Client Comments, and Our Response         19

Appendices

       A. Scope and Methodology                                   21
             Prior Coverage                                       21
       B. Congressional Request                                   23
       C. Congressional Constituent Concerns and Audit Response   25
       D. Summary of Client Comments and Audit Response           33

Client Comments

       Department of the Navy Comments                            39
Introduction
Objective
Our objective was to determine whether contract competition and program administration
for the U.S. Marine Corps Expeditionary Fire Support System and Internally
Transportable Vehicle programs were in accordance with the Federal Acquisition
Regulation (FAR) and supporting DoD guidance. See Appendix A for a discussion of the
Scope and Methodology and prior coverage.

Background
The Expeditionary Fire Support System (EFSS) will be the direct-support weapon system
for vertical assault maneuvers. EFSS comprises two vehicles, ammunition, and crew.
One vehicle, the prime mover, carries a launcher; the other vehicle carries ammunition
for the launcher. EFSS will be manned and supported by the Marine artillery regiment
involved in the maneuver. As a critical element of the ground fire triad (which includes
the high-mobility artillery rocket system, the M777E1 lightweight 155-millimeter towed
howitzer, and the EFSS), the EFSS will provide the Marine Air-Ground Task Force
commander more flexibility in tailoring the fire support systems to the plan of maneuver.
EFSS will provide increased speed, tactical agility, and vertical transportability to ranges
that mirror those of a vertical force, with minimal tradeoffs in lethality. The EFSS will
be capable of 110-nautical-mile lift inside the MV-22 Osprey aircraft and the CH-53E
helicopter.

The Internally Transportable Vehicle (ITV) will be used by the U.S. Marine Corps
ground units to support various operations. The ITV will provide a deployed Marine Air-
Ground Task Force with a ground vehicle that is internally transportable in the MV-22
Osprey and CV-22 tilt-rotor aircraft, as well as in a CH-53 helicopter, and an MH-47
aircraft. The vehicle will serve primarily as a high-mobility weapons-capable platform to
support a variety of operations and provide ground units equal or greater mobility than
the Marine Air-Ground Task Force maneuver elements they support, thereby enhancing
their mission performance and survivability.

On November 10, 2004, the Marine Corps Systems Command (MCSC) awarded
indefinite-delivery, indefinite-quantity contract M67854-05-D-6014 with firm-fixed-price
and cost-plus-award-fee contract line-item numbers for a base year and up to 6 option
years to General Dynamics Ordnance and Tactical Systems (GDOTS) for $12,057,159
for procurement of 66 EFSSs and up to 650 ITVs. MCSC selected GDOTS over two
other offerors. As of July 2008, the contract was valued at $107.9 million. In
March 2008, the EFSS successfully completed follow-on operational test and evaluation.
A May 2008, Marine Corps Operational Test and Evaluation Activity (MCOTEA) report
concluded the EFSS was operationally effective and operationally suitable. In June 2008,
the Milestone Decision Authority approved the full-rate production and fielding decision
for the EFSS Program.



                                             1
In March 2008, the ITV successfully completed initial operational testing and evaluation,
and a June 2008 MCOTEA report concluded the ITV was operationally effective and
operationally suitable. In July 2008, the Milestone Decision Authority approved the
full-rate production and fielding decision for the ITV Program.

Congressional Request for Inspector General Audit
On September 20, 2007, Senator Carl Levin, Chairman of the Senate Committee on
Armed Services, requested that the DoD IG initiate an audit of alleged improprieties in
the competition of the U.S. Marine Corps’ EFSS and ITV programs. Senator Levin noted
that the request was made on behalf of a constituent, Rae-Beck Automotive, LLC, a
Michigan company that was a subcontractor to one of the losing offerors. See
Appendix B for a copy of Senator Levin’s request and Appendix C for a summary of
eight congressional constituent concerns and our audit response to each.

Review of Internal Controls
We determined that material internal control weaknesses in the MCSC existed as defined
by DoD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006. Implementing Recommendations A. and B. will improve MCSC
internal controls over contract competitions and the acquisition system’s program
planning and execution process. We will provide a copy of this report to the senior
official responsible for internal controls in the Department of the Navy.




                                            2
Finding A. Program Management
The Marine Corps Milestone Decision Authority approved the entrance of the EFSS and
ITV programs into the Production and Deployment Phase (Milestone C) before the
systems had demonstrated acceptable performance in developmental test and evaluation.
Premature approval occurred because the Marine Corps miscategorized the EFSS and
ITV as nondevelopmental items and underestimated the development effort required to
modify the EFSS and ITV to meet system performance requirements. As a result, the
schedule for initial operational capability has slipped 22 months for the EFSS and 17
months for the ITV, and the average unit cost has risen by 86 percent for the EFSS and
by 120 percent for the ITV. However, the Marine Corps has corrected most EFSS and
ITV technical problems as reflected in 2008 MCOTEA determinations that the systems
are operationally effective and suitable.

Acquisition Guidance
Federal Acquisition Regulation (FAR)
FAR Part 2, “Definitions of Words and Terms,” defines a nondevelopmental item as any
previously developed item of supply used exclusively for governmental purposes. A
nondevelopmental item requires only minor modification or modifications of a type
customarily available in the commercial marketplace in order to meet the system
performance requirements.

DoD Guidance
DoD Instruction 5000.2, “Operation of the Defense Acquisition System,” May 12, 2003,
establishes a simplified and flexible management framework for translating mission
needs into affordable acquisition programs. Secretary of the Navy Instruction 5000.2C,
“Implementation and Operation of the Defense Acquisition System and the Joint
Capabilities Integration and Development System,” November 19, 2004, implements the
DoD Instruction for the Navy and the Marine Corps. The Defense acquisition
management framework is divided into three milestone phases.

      Milestone A is the Technology Development Phase and is used to determine the
       appropriate set of technologies to be integrated into a new system.
      Milestone B is the System Development and Demonstration Phase and is used to
       develop a system or an increment of capability, reduce integration and
       manufacturing risk, and ensure operational supportability. It is intended to
       integrate subsystems, complete detailed design, reduce system-level risk, and
       demonstrates the ability of the system to operate within the approved key
       performance parameters (KPPs), the operational requirements considered
       essential for mission accomplishment. At Milestone B, the program manager
       establishes the acquisition program baseline, which identifies the program goals
       for performance, schedule, and cost.
      Milestone C is the Production and Deployment Phase. Its goal is to achieve an
       operational capability that satisfies mission needs. Initial operational test and

                                           3
        evaluation (IOT&E) determines the operational effectiveness and operational
        suitability of the system. However, entrance into Milestone C depends on
        acceptable performance in development, test and evaluation, and operational
        assessment and on having no significant manufacturing risks.

Initial operational capability (IOC) is attained when units scheduled to receive the system
receive it and have the ability to employ and maintain it.

EFSS and ITV Acquisition Background
On February 27, 2004, the MCSC released a request for proposals to produce both the
EFSS and the ITV. On November 10, 2004, the MCSC Commanding General, who was
also the Milestone Decision Authority, approved the entrance of the EFSS and ITV
programs into the System Development and Demonstration Phase (Milestone B), and
designated both the EFSS and the ITV as Acquisition Category III programs. An
Acquisition Category III program has an estimated total dollar value less than
$140 million in research, development, test and evaluation (RDT&E) funds and less than
$660 million in procurement funds in FY 2000 constant dollars. The Milestone Decision
Authority is designated by the DoD Component acquisition executive.

On November 10, 2004, the MCSC awarded an indefinite-delivery, indefinite-quantity
contract (M67854-05-D-6014) for procurement of 66 EFSSs and up to 650 ITVs. The
contract award showed an EFSS average unit cost of $578,782 and an ITV average unit
cost of $94,770. The original EFSS and ITV program schedules called for an IOC date of
June 2006 for the EFSS and an IOC date of September 2006 for the ITV. The program
manager established the EFSS and ITV acquisition program baseline based on user-
identified performance, schedules, and cost requirements. The Milestone Decision
Authority approved the entrance of the EFSS and ITV programs into the Production and
Deployment (Milestone C) Phase on June 14, 2005.

EFSS System Performance Requirements
The EFSS capability development document (CDD), November 2, 2004, identified four
KPPs. KPPs are the users’ minimum acceptable requirements for the system. Table 1
shows the four KPPs for the EFSS.

                 Table 1. EFSS Key Performance Parameters
   Key Performance Parameters           Objective                        Threshold

Internal air transportability of           MV-22 and CH-53E         MV-22 and CH-53E
110 nautical miles
Mortar range                                     14 kilometers          7 kilometers
Accuracy
  Probability of range error                          0.3                    0.6
  Probability of detection error                      0.1                    0.6
Network ready                                        Data                   Voice


                                             4
The KPPs for the EFSS have not changed since program inception. The KPP objective
value is an operationally significant increment above the KPP threshold, and the
threshold is a minimum acceptable operational value below which the utility of the
system becomes questionable.

ITV System Performance Requirements
The January 27, 2004, ITV joint operational requirements document identified four KPPs
for the ITV. The KPPs for the ITV have not changed since program inception. Table 2
shows the four KPPs for the ITV.

                   Table 2. ITV Key Performance Parameters
      Key Performance               Objective                            Threshold
        Parameters
Internal air transportation           One in an MV-22                  One in an MV-22
Longitudinal slope operation    60% (tractive effort to weight   60% (tractive effort to weight
                                     ratio = or > 0.53)               ratio = or > 0.53)
Primary weapon ready to fire             45 seconds                       60 seconds
after exiting aircraft
Gross vehicle weight                   ≤ 7,800 pounds                   ≤ 7,800 pounds


Premature Milestone C Approval
The approval to enter Milestone C should not be granted without acceptable performance
in developmental testing and evaluation and no significant manufacturing risks. The
Marine Corps Milestone Decision Authority approved the entrance of the EFSS and ITV
programs into the Production and Deployment (Milestone C) Phase before the systems
had integrated subsystems, completed detailed design, reduced system-level risk, and
demonstrated ability to operate within the approved KPPs. EFSS and ITV detailed
design was not completed, nor had the programs demonstrated acceptable performance in
developmental test and evaluation. In addition, no developmental test reports were issued
prior to the June 2005 Milestone C approval.

The Naval Surface Warfare Center performed EFSS developmental testing in
March 2006 and May 2007, well after the Milestone C decision. Neither developmental
testing round evaluated all EFSS requirements or resulted in the EFSS meeting all
requirements that were evaluated. The Naval Surface Warfare Center performed ITV
developmental testing in May 2007; however, all requirements were not met or evaluated.

A complete and properly assembled system is required to ensure a configuration that can
meet the operational and performance requirements. The inability of the EFSS and ITV
systems to demonstrate acceptable performance in developmental testing showed that the
systems were not technically mature and should not have been approved for entrance into
Milestone C. Their not meeting the system performance requirements during
developmental testing in 2006 and 2007 leads to questions about whether the EFSS and
ITV were accurately defined as nondevelopmental items.


                                            5
Categorization of EFSS and ITV as Nondevelopmental
The EFSS and ITV systems were miscategorized as nondevelopmental items. The FAR
defines a nondevelopmental item as one that was previously developed and states a
nondevelopmental item should require only minor modification to meet the system
performance requirements. The Marine Corps used a modified nondevelopmental item
acquisition strategy for the EFSS and ITV programs to take advantage of solutions
available in the marketplace. Though portions of the EFSS, such as the mortar,
ammunition, and the ammunition trailer, were nondevelopmental items, the vehicles for
both the EFSS and ITV programs required more than minor modifications to meet system
requirements and constituted developmental items.

EFSS and ITV prototype vehicles did not meet all KPPs before contract award. The
August 2004, June 2005, and August 2007 ITV Single Acquisition Management Plans all
stated that, in awarding the EFSS and ITV contract, the Government assumed cost risk in
ensuring EFSS and ITV program requirements would later be met. In May 2004,
contract bidders submitted prototypes as part of the EFSS and ITV source selection to
allow the Marine Corps to evaluate their ability to meet the system requirements. These
evaluations assessed the offered systems’ ability to meet selected system-critical
operational requirements and KPPs. In July 2004, the Naval Surface Warfare Center
stated in the EFSS Source Selection Demonstration Evaluation Report that none of the
offerors’ proposed vehicles met the MV-22 Osprey transportability requirements. As a
result, the EFSS and ITV prototype vehicles required more development effort than
anticipated.

EFSS and ITV Estimated Development Effort
The Marine Corps underestimated the development effort required to modify the EFSS
and ITV to meet size and weight limitations for MV-22 Osprey transportability, as well
as EFSS and ITV performance specifications for durability and reliability. The original
schedules called for a June 2006 IOC for the EFSS and a September 2006 IOC for the
ITV. Development problems were acknowledged in a June 2007, low-rate initial
production contract modification that stated many major subsystems still required
continuous monitoring and critical analysis and that EFSS and ITV subsystem design
changes posed significant challenges because of minimum size, weight, and center of
gravity constraints mandated by the MV-22 Osprey transportability requirements. The
May 2008, limited-rate initial production contract modification stated that a number of
design changes had affected the major subsystems of the EFSS and ITV since
commencement of low-rate initial production. The design changes included suspension,
rear steering, transmission, power steering, and power brakes. As a result of the
development problems, the IOT&Es for the EFSS and ITV were delayed.

The primary objective of IOT&E is to test and evaluate the operational effectiveness and
operational suitability of the EFSS and ITV. The EFSS and ITV must meet the
performance requirements in the approved EFSS CDD or ITV Joint Operational
Requirements Document before the Milestone Decision Authority approves a full-rater
production decision.



                                           6
EFSS Operational Testing
Because of system development problems, the MCOTEA did not begin the IOT&E for
the EFSS until May 2007. A September 2007 MCOTEA operational test report
concluded the EFSS was “operationally effective with limitations” and “operationally
suitable with limitations.” The operational test report recommended that all development
testing be completed before fielding and that other areas of concern identified in the
operational test be addressed and retested.

MCOTEA performed a follow-on operational test and evaluation on the EFSS from
February through March 2008. A May 16, 2008, MCOTEA follow-on report concluded
the EFSS was operationally effective and operationally suitable.

ITV Operational Testing
In the spring of 2007, the Marine Corps determined the ITV was not ready for IOT&E.
As a result, MCOTEA performed an ITV operational assessment from May through
July 2007. A September 2007 MCOTEA operational assessment report noted that the
ITV met many effectiveness and suitability requirements but did not meet other
requirements and warranted further testing. The MCOTEA operational assessment report
stated that, even though the ITV met KPP requirements, the ITV was unreliable.

MCOTEA began the IOT&E for the ITV in February 2008. In March 2008, the ITV
successfully completed IOT&E, and a June 5, 2008, MCOTEA report concluded the ITV
was operationally effective and operationally suitable.

EFSS and ITV Schedule and Cost Changes
As shown above, MCOTEA expressed concerns about the quality of production of both
the EFSS and ITV systems. The development of the EFSS and ITV systems was caught
in a cycle of design, test, and redesign and test. EFSS and ITV system redesign affected
many major subsystems of the vehicles, which needed to be modified to meet system
performance requirements. These systems include the vehicle suspension, rear steering,
transmission, power steering, and power brakes. In August 2007, the EFSS and ITV
program office completed production readiness reviews and physical configuration
audits. At that time, the EFSS and ITV had not completed developmental or operational
testing, or incorporated design changes to address safety, reliability, and performance
issues in production detailed design drawings.

EFSS and ITV problems meeting the identified system requirements have caused
repeated schedule delays and cost increases. Now that the EFSS and ITV programs have
passed operational testing, the program office must ensure that design changes are
properly incorporated in the production process and that the systems are subject to new
physical configuration audits and production readiness reviews. In addition, previously
produced EFSS and ITV systems should be brought up to the new configuration.

EFSS and ITV Schedule Changes
The EFSS schedule requirement goals have slipped many times because of delays in
meeting the system performance requirements. The original November 4, 2004, EFSS

                                            7
acquisition program baseline document called for an IOC objective date of June 2006 and
a threshold date of September 2006. A May 29, 2008, EFSS acquisition program
baseline revision called for an IOC objective date of June 2008 and a threshold date of
December 2008.

As of July 31, 2008, the EFSS IOC schedule had slipped 22 months from the original
threshold date of September 2006 and missed the current program objective date of
June 2008, but had not yet passed the current threshold date of December 2008. The
June 2008 Milestone Decision Authority full-rate production decision was 17 months
later than the original January 2007 threshold date. .

The ITV schedule has also slipped many times because of delays in meeting performance
requirements. The original November 4, 2004, ITV acquisition program baseline called
for an IOC objective date of September 2006 and a threshold date of February 2007. A
July 14, 2008, ITV acquisition program baseline revision called for an IOC objective date
of January 2009 and a threshold date of June 2009.

As of July 31, 2008, the ITV IOC date had slipped 17 months from the original threshold
date of February 2007. If the ITV accomplishes the new January 2009 IOC objective
date, it will be 23 months behind schedule.

EFSS and ITV Cost Growth

EFSS and ITV problems in meeting system requirements have increased overall costs.

Program Management and Engineering Costs
The EFSS and ITV programs have encountered significant growth in program
management and engineering costs. Program management and engineering costs include
all of the program management labor; engineering labor; and materials necessary to
support the development, integration, test and evaluation of the system’s capabilities.
Design deficiencies and changes to meet the system performance specifications have
increased EFSS and ITV program management and engineering costs by 162 percent to
$21 million for a 34-month period ending September 30, 2007. Table 3 shows the
increase in costs of program management and engineering for the EFSS and ITV
programs for FYs 2005 through 2007.




                                            8
        Table 3. Increase in Program Management and Engineering Costs for
                                   EFSS and ITV
     Contract Line               Cost as of              Cost as of            Percent
         Item                November 10, 2004       September 30, 2007        Change
Program Management              $3,611,905                $4,358,915               21
and Engineering FY 2005
Program Management                2,396,840                 9,670,848              303
and Engineering FY 2006
Program Management                1,990,934                 6,899,499              247
and Engineering FY 2007
   Total                         $7,999,679              $20,929,262               162

In addition to the above program management and engineering costs, the EFSS and ITV
program office added a new contract line item for ITV production support valued at
$17,152,971 in place of a previously unexercised $1,792,920 contract option for FY 2008
program management and engineering costs. The above amounts may be subject to
further increase based on negotiation of a $1.8 million contractor engineering change
proposal from the contractor for operational testing and a $1.5 million proposal for
program management and engineering in support of testing.

Contractor Logistic Support Costs
Design deficiencies and changes to meet the system performance specifications have
increased contractor logistic support costs for EFSS and ITV. Costs have increased by
74 percent to $11.8 million for a 44-month period ending July 30, 2008. Table 4 shows
the cost growth in contractor logistic support for the EFSS and ITV programs.

   Table 4. Increase in Costs of Contractor Logistics Support for EFSS and ITV
  Contract Line Item             Cost as of               Cost as of            Percent
                             November 10, 2004           July 30, 2008          Change
Contractor Logistic              $1,594,843               $1,575,453              -1
Support FY 2005
Contractor Logistic                1,487,918                1,868,696              26
Support FY 2006
Contractor Logistic                1,612,713                4,028,598             150
Support FY 2007
Contractor Logistic                2,126,856                4,400,000             107
Support FY 2008*
  Total                           $6,822,330             $11,872,747               74
*The current Contractor Logistic Support costs for FY 2008 are the costs proposed by the
contractor to complete the FY 2008 work required under this contract.


MCSC officials stated that not all cost increases were the result of cost growth. Some
increases stemmed from an increase in the scope of work—for example, providing
training on new equipment to units receiving the EFSS and ITV. MCSC officials did not
provide a breakdown of cost growth and scope increases.


                                               9
Growth in the Unit Cost of the EFSS
Numerous design deficiencies, design changes, and schedule delays have increased the
unit cost of the EFSS. Table 5 shows the increase in the EFSS unit cost from the contract
award date of November 10, 2004, through July 30, 2008.

                        Table 5. Increases in EFSS Unit Cost
 Contract Line Item       November 10, 2004                July 30, 2008           Percent
                                                                                   Change
                        Quantity      Unit Cost     Quantity       Unit Cost
EFSS System                3         $1,476,792       3            $1,591,115          8
Development and
Demonstration Units
EFSS Low-Rate Initial       6           811,783        6               990,466        22
Production
EFSS Limited               12           511,261        6             1,077,726       111
Production

In addition to Table 5 EFSS unit costs, the average EFSS unit cost for purchase of
66 production systems and 3 System Development and Demonstration Units over a base year
and 6 option years was $578,782 at contract award. As of July 2008, EFSS unit cost for
the same systems had risen to $1,077,726, an increase of 86 percent. EFSS development
problems also resulted in the purchase of an additional system design development and
demonstration unit at a cost of $662,283.

MCSC program officials stated that the increase in the EFSS unit cost was related to the
high cost and schedule risk caused by development problems and design changes
required to meet system requirements. The officials noted that, because the design has
been validated by operational testing, the prices should not increase for full-rate
production and could even decrease. However, the program office did not have a current
validated estimate for the EFSS full-rate production costs.

Growth in the Unit Cost of the ITV
Numerous design deficiencies, design changes, and schedule delays have increased the
unit cost of the ITV. Table 6 shows the increase in the unit cost for the ITV from the
contract award date of November 10, 2004, through July 30, 2008.

                         Table 6. Increases in ITV Unit Cost
 Contract Line Item      November 10, 2004            July 30, 2008          Percent Change

                        Quantity    Unit Cost     Quantity       Unit Cost
ITV System                 4        $274,544          4          $224,500             -18
Development and
Demonstration Units
ITV Low-Rate Initial        8        186,266         15          296,214               59
Production
ITV Limited-Rate           Not Applicable            66          208,938         Not Applicable
Initial Production


                                            10
In addition to Table 6 ITV unit costs, the average ITV unit costs for the 650 production
systems over a base year and 6 option years was $94,770 at contract award. As of
July 2008, ITV average unit cost for the same systems had risen to $208,938, an increase
of 120 percent. The original contract did not have an option for limited-rate initial
production, but as a result of development problems, a new contract line item was added.
Development problems also resulted in the purchase of 12 additional development and
demonstration ITV systems at an average unit cost of $258,197.

MCSC program officials stated that the increase in the ITV unit cost stems from the high
cost and schedule risk caused by development problems and design changes required to
meet system requirements. The officials noted that, because the ITV design has been
validated by operational testing, full-rate production will bring economies of scale, and
the unit costs should decrease. However, the program office did not have a current
validated estimate for the ITV full-rate production costs.

Conclusion
The Marine Corps Milestone Decision Authority approved the entrance of the EFSS and
ITV programs into the Production and Deployment Phase (Milestone C) before the
systems had demonstrated acceptable performance in developmental test and evaluation
and had no significant manufacturing risks as required by DoD Instruction 5000.2. The
Marine Corps miscategorized the EFSS and the ITV as nondevelopmental items and
underestimated the modifications required to meet the EFSS and ITV system
performance requirements. In particular, meeting the MV-22 transportability KPPs
required more development than anticipated. The increased development time and effort
resulted in significant schedule delays and cost growth for the EFSS and ITV programs.
The management and mitigation of technology risk are a crucial part of overall program
management and are especially relevant to meeting cost and schedule goals.




                                           11
Client Comments on the Finding
The Commander, MCSC disagreed with the finding. See Appendix D for a summary of
the comments and our response.

Recommendations, Client Comments, and Our
Response
A. We recommend that the Commander, Marine Corps Systems Command require
the Expeditionary Fire Support System and Internally Transportable Vehicle
Program Manager to:

       1. Perform new physical configuration audits and production readiness
          reviews on the Expeditionary Fire Support System and the Internally
          Transportable Vehicle before awarding a full-rate production contract
          modification.

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC agreed with the recommendation. The Commander, MCSC stated
that the EFSS/ITV program office completed production readiness reviews and
production configuration audits on September 30, 2008. The Commander, MCSC stated
that all changes have been incorporated utilizing a configuration management process
and that all EFSS and ITV systems will be in line with current configuration prior to
fielding.

Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.

       2. Complete new life-cycle cost estimates for both the Expeditionary Fire
          Support System and Internally Transportable Vehicle programs before
          awarding a full-rate production contract modification.

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC partially agreed with the recommendation. Both the Assistant
Secretary and the Commander, MCSC stated that an EFSS and ITV life-cycle cost
estimate was prepared for each program’s production and deployment decisions. The
Commander, MCSC agreed to update the ITV portion of the life-cycle cost estimate prior
to entering into the sustainment phase of acquisition. The Commander, MCSC also
stated that, although the remainder of the life-cycle cost estimate appeared to be valid,
MCSC would review and update it if necessary.




                                           12
Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.

       3. Ensure that full-rate production contract modifications are definitized at
          the time of issuance.

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC agreed with the recommendation. The Commander, MCSC stated
that there are no open, undefinitized contractual actions for the EFSS or ITV systems and
no plans to award any undefinitized contractual actions for future EFSS/ITV production.

Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.

       4. Modify Expeditionary Fire Support System and Internally Transportable
          Vehicle systems already produced to the most current configuration
          before fielding them.

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC agreed with the recommendation. The Commander, MCSC stated
that MCSC was upgrading the EFSS and the ITV to the current configuration and that the
upgrades would be completed prior to fielding.

Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.




                                           13
Finding B. Contract Award
The MCSC did not award the EFSS and ITV contract in accordance with the FAR.
Specifically, MCSC source selection personnel did not:

        adequately document and disclose all technical evaluation criteria in the
         solicitation, or
        prepare a price negotiation memorandum.

These omissions occurred because MCSC source selection personnel inexplicably
ignored FAR guidance. As a result, the MCSC’s award of the EFSS and ITV contract to
GDOTS did not meet FAR tests of fairness, impartiality, and equitable treatment.

EFSS and ITV Technical Evaluation
The MCSC did not award the EFSS and ITV contract in accordance with the FAR. The
MCSC source selection personnel did not adequately document and disclose all technical
evaluation criteria in the solicitation.

Request for Proposals
On February 27, 2004, the MCSC issued solicitation number M67854-04-R-6014 for the
procurement of 66 EFSSs and up to 650 ITVs. In response to the solicitation, the MCSC
received three proposals.

The solicitation noted the evaluation criteria consisted of four noncost factors and a cost
and price factor. The four noncost factors were technical capability, mutuality (see
Appendix C), past performance, and business management approach. The technical
capability factor consisted of 15 subfactors. The offeror’s technical proposals would be
evaluated against the performance specifications.

The technical evaluation used five color codes to depict the rating for each factor and
subfactor. The threshold requirement was to be met if the requirement statement
contained the word “shall.” Failure to meet any threshold requirement containing a
“shall” statement would result in a “red-unacceptable” rating for the subfactor,
disqualifying the offeror from consideration for award. Failure to satisfy a threshold
requirement that contained the word “should” would result in a “yellow-marginal” rating
for that subfactor and possibly the rejection of the offer. Fully satisfying the threshold
requirement would result in a “green-acceptable” rating for that subfactor. Exceeding the
threshold requirement would result in a “purple-good” rating for that subfactor. Meeting
or exceeding the objective requirement would result in a “blue-exceptional” rating for
that subfactor.

An overall factor rating of red, yellow, green, purple, or blue for that offeror’s technical
proposal would be applied at each factor level based on the evaluation team’s assessment
of the overall collective merits of the subfactors within each factor. There was one
overall rating on the technical capability factor for an offeror’s proposal. Factor 1,

                                             14
technical capability, was more important than factor 2. Factor 2, mutuality, was more
important than factor 3. Factor 3, past performance, was more important than factor 4,
business management approach. The subfactors under technical capability were listed in
descending order of importance; and subfactors listed at the same level were of equal
importance.

The solicitation noted the price evaluation would determine whether each offeror’s
proposed price to the Government was reasonable, realistic, and complete. The proposed
pricing was to be consistent with the technical and management portions of the offer and
represent a sound business strategy. The solicitation also noted there would be no
advantage to an offeror submitting an unrealistically low offer.

Proposal Evaluation Ratings
On August 19, 2004, the Source Selection Evaluation Board (SSEB), the Technical
Evaluation Board, and the Business Management Evaluation Board briefed the Source
Selection Authority (SSA) and the Source Selection Advisory Council (SSAC) on the
proposal ratings. The SSAC minutes noted that the SSAC recommended Offeror A,
which it believed presented the best overall value to the Government. The SSA did not
accept the recommendation and directed the contracting officer to establish a competitive
range including Offeror A and Offeror B (GDOTS), which had the most highly rated
proposals, and reopen discussion to address significant weaknesses. The SSA also asked
for further physical validation regarding GDOTS’ ability to meet the transportability
requirements.

On October 14, 2004, the SSEB, the Technical Evaluation Board, and the Business
Management Evaluation Board briefed the SSA and the SSAC on the second evaluation
of proposals. The SSAC minutes noted there was concern over the unacceptability of the
GDOTS external lift concept. However, the SSAC recommended that Offeror A and
GDOTS be considered equal on all evaluation factors except cost. The SSA did not
accept the recommendation and directed the contracting officer to modify the solicitation
by removing the Light Armored Vehicle-Mortar option because it was unsuccessful in the
Program Objective Memorandum process and reopen discussions with Offerors A and B
to address remaining weaknesses.

On November 7, 2004, the SSEB, the Technical Evaluation Board, and the Business
Management Evaluation Board briefed the SSA and the SSAC on the third evaluation of
proposals. The SSAC minutes noted that the ratings for each offeror would stand and
that the analysis of the cost figures was limited to the evaluated costs without the
ammunition adjustments. The SSAC felt that GDOTS ammunition certification would
cost the Government more, but there was no way to accurately quantify the cost.
Following open discussions of the evaluation results, the SSA announced that GDOTS
was his best-value determination.

The November 7, 2004, chart showing technical factor ratings for the GDOTS external
vertical transportability concept noted that it failed to meet threshold requirements.
However, source selection personnel stated to us, that the chart was incorrect and that
GDOTS used a double-slung load, which was acceptable. The double-slung load was

                                           15
authorized by Field Manual 10-450-3, “MultiService Helicopter Slingload: Basic
Operations and Equipment,” April 1997. In addition, source selection personnel stated
that the Technical Evaluation Board considered the external vertical transportability
concept an element, not a subfactor. Source selection personnel stated that individual
performance specifications, which were referred to as elements, did not rise to the level
of subfactors unless the specification was a KPP.

The solicitation evaluation criteria did not disclose that a performance specification did
not rise to the level of a subfactor unless the specification was a KPP. FAR 15.303,
“Responsibilities,” states the SSA “shall ensure consistency among the solicitation
requirements, notices to offerors, proposal preparation instructions, evaluation factors and
subfactors, solicitation provisions or contract clauses, and data requirements.” Source
selection personnel should have documented and disclosed the importance of the
performance specifications to the subfactors in the solicitation to avoid a
misunderstanding of the evaluation criteria among the contract offerors.

EFSS and ITV Price Evaluation
The contracting officer did not prepare a price negotiation memorandum to document that
the negotiation was fair and reasonable.

Price Negotiation Memorandum
The contracting officer did not prepare a price negotiation memorandum in accordance
with FAR 15.406-3, “Documenting the Negotiation.” Therefore, the principal elements
of the negotiation were not documented. The contracting officer prepared a price and
cost analysis for the EFSS and ITV source selection. However, the price and cost
analysis did not include required documentation: (1) the current status of any contractor
systems that were considered in the negotiation; (2) a summary of the contractor’s
proposal and the Government’s negotiated objective and negotiated position; (3) the
significant facts or considerations controlling the establishment of the prenegotiation
objectives and the negotiated agreement, including explanations of significant
differences; (4) the basis for the profit or fee prenegotiation objective and the profit or fee
negotiated; and (5) documentation of fair and reasonable pricing. The contracting officer
stated he knew the FAR requirement for the price negotiation memorandum and that the
contracting officer was responsible for documenting that the Government received a fair
and reasonable price. The contracting officer could not explain why a price negotiation
memorandum was not prepared.

MCSC officials stated that a business clearance memorandum, which meets the Navy and
Marine Corps requirement for a price negotiation memorandum, was prepared, but a copy
of the signed business clearance memorandum could not be located. However, the
MCSC could find only an unsigned business clearance memorandum, dated
December 14, 2004, which was incomplete and did not contain all the required
information of a price negotiation memorandum. MCSC officials stated to us that they
have taken action to preclude a similar breakdown in administrative record keeping in the
future.



                                              16
ITV Proposed Price
Offeror A submitted a proposal price of $300.1 million, of which $113.6 million was for
the ITV. GDOTS submitted a proposal price of $279.4 million, of which $61.6 million
was for the ITV. The difference in price between the two offerors for the ITV was
$52 million.

Jacobs Sverdrup Technology, Inc. prepared an October 2004 ITV life-cycle cost estimate
1 month before the contract award. The total estimated ITV cost for RDT&E and
procurement was $89.6 million. The contracting officer stated that he thought the ITV
life-cycle cost estimate was prepared after the award and that he did not have it during
source selection. The contracting officer stated he did not consider the GDOTS price on
the ITV an underbid because GDOTS had a lower cost technical solution on a vehicle
that was already built. The contracting officer stated that no Government personnel
questioned the GDOTS proposal price even though there was a large difference between
the offerors’ prices on the ITV portion of the solicitation. FAR 15.404-1(a) (1),
“Proposal Analysis,” states the contracting officer is responsible for evaluating the
reasonableness of the offered prices. The contracting officer stated that he relied on
competition to determine a fair and reasonable price. Although not required, the program
office did not prepare an independent Government cost estimate.

The average unit price for the ITV at the time of award was approximately $94,770. The
contracting officer stated that the final production price for an ITV could range from
$180,000 to $200,000. In fact, with current average unit prices, if the MCSC procures up
to 650 ITVs, the price would range from $117 million to $130 million. The original price
for the ITV was subject to change because the ITV would need extensive modifications
to meet program requirements. Therefore, the SSA should have selected a contractor
based on technical merit and then negotiated price.

Source Selection Decision
The SSA stated in his source selection decision memorandum that the GDOTS solution
provided the best overall value to the Marine Corps. The SSA concluded that the
technical advantages related to mobility, deployability, transportability, and noncritical
mission performance attributes of Offeror A did not sufficiently increase its value enough
to merit Offeror A’s additional $20 million in total price.

MCSC Implementation of FAR Guidance
MCSC source selection personnel inexplicably ignored FAR guidance during the EFSS
and ITV source selection process. Source selection personnel could not explain to us
why all the evaluation criteria were not included in the solicitation, FAR proposal
analysis requirements were not complied with, or contract offerors were not ensured fair
treatment.

Evaluation Criteria
FAR 15.303 requires the SSA to ensure consistency among the solicitation requirements
and evaluation factors and subfactors. Because the importance of the performance
specifications to subfactors was not documented in the solicitation evaluation criteria, the

                                             17
solicitation was not consistent in the way solicitation performance specifications were
evaluated. They could not explain why they did not document and disclose the
importance of the performance specifications to the subfactors in the solicitation.
Disclosing all evaluation criteria in the solicitation is critical to ensuring that offerors
understand the relative importance of the evaluation criteria and receive impartial, fair,
and equitable treatment.

Proposal Analysis
FAR 15.404-1(a) (1) requires the contracting officer to evaluate the reasonableness of the
offered prices. The contracting officer stated that he did not prepare a price negotiation
memorandum or document that the Government received a fair and reasonable price as
required by FAR 15.406-3. Furthermore, the contracting officer stated he was unaware
of the ITV life-cycle cost estimate, which was prepared 1 month before the EFSS and
ITV contract award. The contracting officer could not explain why the FAR proposal
analysis requirements were not complied with.

Treatment of Offerors
FAR 1.602-2, “Contracting Officer Responsibilities,” states that contracting officers are
responsible for ensuring performance of all necessary actions for effective contracting
and for safeguarding the interests of the United States in its contractual relationships. To
perform these responsibilities, contracting officers should be allowed wide latitude to
exercise business judgment and are to:

                      ensure that all requirements of law, executive orders,
                       regulations, and all other applicable procedures, including
                       clearances and approvals, have been met before a contract
                       shall be entered into;
                      ensure that contractors receive impartial, fair, and equitable
                       treatment; and
                      request and consider advice of specialists in audit, law, and
                       other fields, as appropriate.

However, the contracting officer did not ensure that contractors received impartial, fair,
and equitable treatment with respect to documenting and disclosing all technical
evaluation criteria in the solicitation. Training contracting officers to ensure familiarity
with their responsibilities and authority will alert them to these circumstances in the
source selection process.

Conclusion
The MCSC did not award the EFSS and ITV contract in accordance with the FAR.
MCSC source selection personnel did not adequately document and disclose all technical
evaluation criteria in the solicitation and did not prepare a price negotiation
memorandum. Training is needed to ensure source selection personnel comply with
source selection procedures in the FAR to achieve fair treatment for offerors. As a result,
the MCSC’s award of the EFSS and ITV contract to GDOTS did not meet FAR tests of
fairness, impartiality, and equitable treatment.



                                                18
Client Comments on the Finding
The Commander, MCSC, disagreed with the finding. See Appendix D for a summary of
the comments provided and our response.

Recommendations, Client Comments, and Our
Response
B. We recommend that the Commander, Marine Corps Systems Command:

       1. Train contracting officers to ensure their familiarity with their authority
and responsibilities as set forth in Federal Acquisition Regulation 1.602-2,
“Contracting Officer Responsibilities.”

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC agreed with the recommendation. The Commander, MCSC stated
that MCSC appoints contracting officers only after a rigorous review process to ensure
trained qualified individuals are vested with the right level of authority after
demonstrating the ability to execute sound business judgment and uphold the
requirements of the regulations and policies of the Government, DoD, and the
Navy/Marine Corps.

Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.

        2. Perform an administrative accountability review regarding the contracting
official’s performance in awarding the Expeditionary Fire Support System and
Internally Transportable Vehicle contract, and consider appropriate remedial
action.

Department of the Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition) and the
Commander, MCSC agreed with the recommendation. The Commander, MCSC stated
that after a review of the facts leading to the lack of a documented price negotiation
memorandum, he does not believe there was evidence of any deliberate avoidance of the
pertinent regulations by MCSC contracting staff. There was a breakdown in
administrative record keeping. The Commander stated that the MSCS Assistant
Commander for Contracts has completed four specific actions to preclude a repeat of the
MCSC contracting events by: 1) ensuring MCSC contracting personnel have adequate
workspaces including file cabinets, 2) ensuring that all workstations leased via contract
are controlled by the Assistant Commander to prevent the potential loss of contracting
information from transferring workstations, 3) recording the review and approval of
contract support documents with the MCSC Contracts Directorate, and 4) providing
computer hard drives and training on backing up critical data files to prevent the
inadvertent loss of critical files and data resulting from workstation failures. The


                                           19
Commander also recognized the importance of and responsibility to maintain proper
records as specified in the FAR and would ensure that the current contracting team
supporting the EFSS/ITV program provides training in a lessons learned or similar format
with the rest of the contracting competency to ensure that the entire Command is made
aware of the potential consequences of poor record keeping.

Our Response
The comments of the Assistant Secretary of the Navy and the Commander, MCSC were
responsive and conformed to requirements; no additional comments are needed.




          Internally Transportable Vehicle




                                          20
Appendix A. Scope and Methodology
We conducted this performance audit from December 2007 through September 2008 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence dated
from October 1992 through August 2008, to provide a reasonable basis for our findings
and conclusions based on our audit objectives. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit
objectives.

We reviewed the United States Marine Corps’ contract competition and program
administration of the EFSS and ITV programs for compliance with the FAR and
supporting DoD guidance. Specifically, we examined sections of the FAR, the Defense
FAR Supplement, DoD Directive 5000.1, “The Defense Acquisition System,” DoD
Instruction 5000.2, “Operation of the Defense Acquisition System,” the DoD Acquisition
Guidebook, Secretary of the Navy Instructions, source selection and overall contract
documentation specific to the contract, program testing, current status, and acquisition
documentation. In response to Senator Levin’s request, we also reviewed eight
constituent concerns regarding the EFSS and ITV programs. We discussed the concerns
with the constituent and reviewed related documentation provided by the constituent.

While conducting this audit, we visited the MCSC in Quantico, Virginia; Marine Corps
Combat Development Command, Quantico; Marine Corps Operational Test and
Evaluation Agency in Twenty-nine Palms, California; and the Nevada Automotive Test
Center in Carson City, Nevada. At the MCSC we interviewed program management
personnel, the contracting officer, source selection officials, and engineers for the EFSS-
ITV program. At the Marine Corps Combat Development Command, we interviewed the
user representative and action officer for the ITV. At the Marine Corps Operational Test
and Evaluation Agency, we interviewed the user and operational testers, and we
witnessed testing on the ITV. At the Nevada Automotive Test Center, we interviewed
the developmental testers for the EFSS and the ITV. We calculated EFSS and ITV
schedule delays by comparing the original acquisition program baseline thresholds with
the current program objectives.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Use of Technical Assistance
We obtained assistance from engineers in the Technical Assessment Directorate, Office
of Inspector General in understanding the technical requirements of the EFSS and ITV.

Prior Coverage
During the last 5 years, the Government Accountability Office (GAO) has issued three
reports discussing the EFSS. No reports have been issued during the last 5 years



                                            21
regarding the ITV. Unrestricted GAO reports can be accessed over the Internet at
http://www.gao.gov.

GAO
GAO Report No. GAO 08-467SP Defense Acquisitions, “Defense Acquisitions:
Assessments of Selected Weapon Programs,” March 31, 2008

GAO Report No. 08-331R Defense Acquisitions, “Defense Acquisitions: Status of the
Expeditionary Fire Support System,” December 21, 2007

GAO Report No. GAO 07-406SP Defense Acquisitions, “Defense Acquisitions:
Assessments of Selected Weapon Programs,” March 30, 2007




                                          22
Appendix B. Congressional Request




                    23
Appendix C. Congressional Constituent Concerns
and Audit Response
On September 20, 2007, Chairman of the Senate Committee on Armed Services Carl
Levin requested we review allegations of improprieties in the competition of the United
States Marine Corps EFSS and ITV programs. Senator Levin forwarded a July 16, 2007,
constituent letter from Rae-Beck Automotive, LLC, noting eight areas of concern
regarding the EFSS and ITV program competition. Senator Levin requested we review
and report on the constituent concerns. Each of the eight concerns is synopsized below
and followed by an audit response.

Mobility, Deployability, and Transportability Subfactor
Evaluation
Rae-Beck claimed that the GDOTS external lift concept failed to meet EFSS and ITV
mobility, deployability, and transportability threshold requirements and that GDOTS
inappropriately received an “acceptable” rating for mobility, deployability, and
transportability. Rae-Beck claimed that GDOTS should have received a “red” rating,
which could have resulted in disqualification.

Audit Response
The concern was partially substantiated. The MCSC November 7, 2004, technical factor
ratings mentioned, “the consensus of the TEB (Technical Evaluation Board) that the
offeror’s (GDOTS) external lift concept still fails to meet threshold requirements.”
However, the Technical Factor Ratings also included a chart noting a “green” acceptable
rating for the GDOTS on the mobility, deployability, and transportability subfactor.
MCSC source selection personnel told us that the technical subfactor color-coded ratings
were correct, but that the supporting discussion regarding the GDOTS external lift
concept was written incorrectly. The MCSC personnel also told us that GDOTS had
indeed demonstrated an acceptable approach for external vertical transportability using a
double-slung load method, which was supported by Field Manual 10-450-3,
“MultiService Helicopter Slingload: Basic Operations and Equipment.”

MCSC source selection personnel stated that the GDOTS external lift concept was an
“element” and did not rise to the level of a subfactor, which could result in the
disqualification of an offeror. As noted in finding B, the MCSC solicitation evaluation
criteria did not disclose that the individual performance specifications did not rise to the
level of subfactors unless the specification was a KPP. We concluded that MCSC source
selection personnel should have documented and disclosed the relative importance of the
performance specifications to the subfactors in the solicitation to avoid a
misunderstanding of the evaluation criteria among potential offerors.

Systems Demonstration Evaluations
Rae-Beck stated that during a systems demonstration of the EFSS, Rae-Beck’s prime
contractor, Offeror A, received a deficiency notice of noncompliance because the EFSS


                                             25
was unable to drive on or off the MV-22 in reverse. Rae-Beck stated that Offeror A was
given 48 hours to correct the noncompliance, and was also required to demonstrate
compliance after resolution; otherwise, the threshold requirement would have resulted in
a transportability failure. Conversely, Rae-Beck claimed that GDOTS was given
preferential treatment and as much time as necessary to comply with any deficiencies,
even after the close of the official system demonstrations.

Audit Response
The concern was not substantiated. Both Offeror A and GDOTS were given specific
dates and times for performing official system demonstrations. If they were unable or
unwilling to perform the demonstration at the specific time, they were given 48 hours to
correct the deficiency. Both Offeror A and GDOTS received deficiency notices for
system demonstrations. Failure to perform a demonstration did not mean the offeror
would fail the applicable subfactor. Rather, failing to perform a demonstration would
result in a discussion item, which would explain the deficiency and how it would be
resolved in the final proposal revision.

MCSC generated discussion items to notify Offeror A of a potential deficiency as part of
demonstration testing of vertical transportability. Offeror A’s response to the discussion
items included further proposal revisions that led to an “Acceptable” rating for the
Offeror A vertical transportability subfactor.

GDOTS also had discussion items resulting from its vertical transportability
demonstration. GDOTS had to change its internal transportability concept in its first final
proposal revision. Because the revised transportability concept was different from the
initial demonstration, GDOTS had to return to Patuxent River, Maryland, to demonstrate
the new internal transportability approach. This led to an “Acceptable” rating for the
GDOTS vertical transportability subfactor. We concluded that GDOTS did not receive
preferential treatment.

Mutuality Factor Evaluation
Rae-Beck stated that both bidders’ proposals were rated “Good” by the SSEB for
mutuality. Rae-Beck claimed Offeror A had no mutuality weaknesses but that the
GDOTS offer lacked commonality between its proposed mortar and munitions and those
used within DoD. Rae-Beck questioned how a GDOTS “Good” rating was achieved
when the MCSC technical evaluation stated that Offeror A provided a significant benefit
in commonality with Army ammunition, while stating the GDOTS proposal provided no
benefit of commonality to the Marine Corps.

Audit Response
The concern was not substantiated. November 7, 2004, SSEB mutuality factor evaluation
charts rated both competing proposals as “Purple-Good.” MCSC source selection
personnel stated that the mutuality factor related to commonality of hardware items,
specifications, management processes, and applications, and was not limited to
commonality with Army programs and processes. A “Purple-Good” rating addressed
mutuality across both the EFSS and ITV programs to provide good benefits to the Marine


                                            26
Corps. The TEB Chairman stated that the GDOTS mortar used ammunition based on a
NATO-certified French design and was domestically produced. Thus, MCSC did not
deem mutuality of the GDOTS ammunition as a problem that would affect the evaluation.
We concluded that the mutuality ratings for the two offerors were consistent with the
evaluation.

Evaluation of Safety and Survivability Subfactors
Rae-Beck questioned the basis of the SSEB conclusion that the two offerors’ vehicles
were deemed equal on safety and survivability subfactors. Rae-Beck noted that MCSC
deemed Offerors A’s platform as enhancing the crew’s survivability.

Audit Response
The concern was not substantiated. The MCSC TEB Chairman stated that both vehicles
were evaluated against performance specifications and found acceptable for safety.
MCSC also noted that while Offeror A provided a proposal that contained interesting
safety features, the features were not significant enough in the TEB’s assessment to raise
the proposed approach to the next level of evaluation. Thus, the TEB November 7, 2004,
technical factor ratings showed that both offerors were rated “Green-Acceptable” for the
safety and survivability subfactors. We concluded that the ratings for the two subfactors
were consistent with the evaluation criteria.

Ammunition Certification Costs
Rae-Beck noted that the November 7, 2004, SSAC minutes stated, “It was felt that
Offeror B [GDOTS] would be higher cost to the Government for ammunition
certification, but there was no acceptable way to quantify those costs accurately for this
evaluation.” Rae-Beck questioned why the SSA subsequently removed approximately
$18 million proposed for ammunition certification from the GDOTS final proposal.

Audit Response
The concern was not substantiated. The contracting officer stated that ammunition
certification costs were not included in the solicitation as an evaluation element and the
Government would separately pay for ammunition certification as a Government
requirement. Neither GDOTS nor Offeror A proposed any ammunition certification
costs. An MCSC cost analyst made a rough estimate of GDOTS ammunition
certification costs at $18 million, and Offeror A’s ammunition certification costs at
$1 million. The contracting officer noted that ammunition costs were considered a
programmatic rather than a contractual cost and that estimating the certification cost for
either offeror was uncertain because of multiple Government testing and certification
variables. As a result, MCSC did not include the ammunition certification costs in the
formal price and costs analysis and did not consider them in the Government price
reasonableness comparison.

Capabilities Development Document
Rae-Beck stated that, during a January 2004 industry day, MCSC promised in response to
numerous industry requests to post a draft CDD on its EFSS Web Site. The CDD was


                                             27
not issued until November 2, 2004, one day before the November 3, 2004, deadline for
proposal revisions. Rae-Beck questioned why MCSC held the final CDD until 5 days
before the award decision, what changes and updates were made in the final CDD, and
when such changes were made.

Audit Response
The concern was not substantiated. The CDD is used to support program initiation and
provides the detailed operational performance parameters necessary to design the
proposed system. However, the February 27, 2004, EFSS and ITV request for proposals
used performance specifications to define system requirements. The CDD was not part
of the request for proposals, but the draft CDD supported the preparation of the
performance specifications. The EFSS and ITV contracting officer told us that the CDD
belongs to the MCCDC and that he did not want to release a draft of the CDD to industry.
The contracting offer also stated that the CDD was not available to MCSC until released
by the MCCDC in final form on November 2, 2004, when MCSC posted it on its EFSS
public Web Site.

MCSC and the MCCDC stated that draft versions of the CDD used to support the
preparation of the draft and final request for proposals were no longer available.
However, the KPPs and critical system requirements for the EFSS and ITV identified in
the final CDD and final Operational Requirement Document were not materially changed
from those in the request for proposals performance specification. Thus, we found no
indication that the final CDD was materially changed before its November 2, 2004,
release.

August and October 2004 SSAC Evaluation Findings
Rae-Beck questioned why the SSA did not award the contract to Offeror A based on the
initial August 19, 2004, SSAC results chart, which rated the overall Offeror A technical
proposal as “Green” and the GDOTS proposal as “Yellow.” Rae-Beck also questioned
why the SSA did not award the contract to Offeror A after revised proposals were
evaluated by the SSAC for technical capability on October 14, 2004. Rae-Beck stated
that the October 2004 SSAC results showed that Offeror A had substantially exceeded
thresholds with a cost almost 8 percent less than GDOTS’.

Audit Response
The concern was not substantiated. The August 19, 2004, SSAC results briefing
recommended the SSA award the EFSS/ITV contract to Offeror A as the best value to the
Government because Offeror A’s higher rated technical approach offset a lower price
proposed by Offeror B (GDOTS). The SSA did not accept the August 2004 SSAC
recommendation and directed the contracting officer to establish a competitive range and
open discussions with Offeror A and GDOTS to address technical weaknesses and
deficiencies and provide revised proposals. The SSA directed that Offeror C be excluded
from the competitive range because of significantly higher proposed pricing, combined
with a significantly lower and noncompetitive technical rating that would not likely
improve with further discussions.



                                           28
October 14, 2004, SSAC minutes did not recommend either offeror to the SSA for
selection but noted that both offerors were considered equal for all technical evaluation
factors, with cost being the only difference. The SSAC also noted concerns over lack of
funding for the Light Armored Vehicle-Mortar, an all-terrain vehicle that provides
indirect fire support to light infantry. As a result, the SSA directed the contracting officer
to amend the solicitation to remove the Light Armored Vehicle-Mortar option because
removal of the option would have a cost impact on both proposals. The SSA directed the
contracting officer to reopen discussions with both offerors to address remaining
perceived weaknesses in both offerors’ proposals. We concluded that the SSA acted
within his authority as required by the FAR.

Rae-Beck Comments Regarding MCSC Information Paper
Rae-Beck made seven comments regarding the contents of a February 27, 2007, EFSS
and ITV program information paper prepared by MCSC for the Marine Corps
Commandant. Rae-Beck stated that the former MCSC Commander was the Milestone
Decision Authority, had created the mutuality factor, had linked the EFSS and ITV
programs in a single procurement, and had the final say on whether a contract would be
awarded.

Rae-Beck was also concerned that the information paper indicated that the original
schedule for the EFSS full-rate production decision (IOC) was late FY 2007, which was
inconsistent with the CDD call for an IOC in FY 2006.

Rae-Beck implied that the former Commander of MCSC had a potential conflict of
interest regarding the EFSS and ITV programs because he allegedly championed a
particular mortar while Commander of the Marine Corps War Fighting Laboratory.

Rae-Beck also stated that a 2003 MSCS ITV feasibility study was performed under a
contract with Jacobs-Sverdrup Corporation. Rae-Beck implied that American
Growler Inc. had performed work on the Jacobs-Sverdrup contract and therefore had an
unfair advantage in the EFSS and ITV contract.

Three other of the seven Rae-Beck comments dealt with August and October 2004 SSAC
evaluation concerns noted above.

Audit Response
The former Commander, MCSC was the EFSS and ITV Milestone Decision Authority.
The Deputy Commander, MCSC was the SSA for the EFSS and ITV. The SSA made the
decision to adopt mutuality as an evaluation factor for this procurement at the direction of
the Commander, MCSC. As a result, the MCSC request for proposals and source
selection plans for the EFSS and ITV incorporated the mutuality approach and included
mutuality as an evaluation factor along with technical capability, past performance,
business management approach, and cost or price. See above for Rae-Beck questions and
audit discussion of the mutuality factor evaluation process.




                                             29
On November 10, 2004, the Milestone Decision Authority designated the EFSS and ITV
as Acquisition Category III programs and approved their entry into Milestone Phase B,
Systems Development and Demonstration. As described in finding A, the EFSS program
schedule has slipped 22 months because of development problems. The initial
2004 CDD and the acquisition program baseline documents noted an IOC date in
FY 2006. A May 29, 2008, EFSS acquisition program revision 3 called for an IOC
objective date of June 2008 and a threshold date of December 2008. On June 2, 2008, the
Milestone Decision Authority approved full-rate production of the EFSS.

The following concerns were not substantiated. On November 10, 2004, the MCSC
contracting officer awarded contract M67854-05-D-6014 to GDOTS. An MCSC
decision memorandum stated that the SSA determined that the GDOTS offer provided
the best overall value to the Marine Corps. The SSA stated to us that he based the
contract award on the information provided by the SSEB and was not influenced by the
Milestone Decision Authority. On March 30, 2005, the Defense Hotline referred to the
Marine Corps Inspector General a complaint alleging misconduct of the MCSC
Commander during the source selection and contract award of the EFSS and ITV
programs. An August 10, 2005, Marine Corps Inspector General report concluded there
was no evidence that the MCSC Commander used his position to influence the source
selection and contract award and that the allegations were not substantiated. On July 28,
2008, the Naval Criminal Investigative Service closed a subsequent investigation
concluding that no evidence was revealed to support allegations that the former MCSC
Commander influenced the EFSS/ITV award to GDOTS.

The following concerns were partially substantiated. On March 28, 2003, MCSC
contracted through contract M67854-99-D-3011, task order 0073 with Jacob Sverdrup
Technology, Inc., to perform an ITV requirements verification study.1 The objective of
the study was to analyze the ITV joint operational requirements and determine the
feasibility and risk of meeting requirements with representative commercial, off-the-shelf
utility vehicles. The approach used three screening criteria: whether a vehicle was
internally transportable in the MV-22 Osprey, whether it was diesel powered, and
whether it was commercially available or a nondevelopmental item. Jacob Sverdrup was
to perform the requirements analysis and limited vehicle testing on two representative
commercial, off-the-shelf vehicles.

An undated ITV requirements verification study report prepared by Jacobs-Sverdrup
identified potential commercial off-the-shelf or nondevelopmental item alternatives for
the ITV requirement. The report stated that, while 33 vendors responded to the request
for information, 2 would meet the criteria upon availability of a diesel option. Jacobs
Sverdrup Technology, Inc. identified three vendors that did not respond to the request for
information and were requested to provide information on their vehicles and their
capabilities. American Growler, Inc. responded to the request for information, but the
report stated the American Growler vehicle was too wide and thus did not meet the
MV-22 Osprey internal transport criteria.

1
  M67854-99-D-3011, task order 0073, was valued at $1,035,901 through final modification 5 of July 10,
2003.


                                                  30
MCSC officials stated that Jacobs-Sverdrup performed limited vehicle testing during
2003 as part of the requirements verification study using two American Growler vehicles
purchased from an American Growler subsidiary, Carolina Growler. MCSC officials
stated that American Growler, Inc. was not involved in the testing and did not have
access to the results of the testing. MCSC officials could not provide detailed
documentation on the specifics of the Jacobs-Sverdrup testing and were unable to explain
why the American Growler vehicle was selected for the limited vehicle testing when the
American Growler vehicle did not meet the screening criteria stated in the requirements
analysis.




                                          31
Appendix D. Summary of Client Comments
and Audit Response
General Client Comments on the Audit Report
Navy Comments
The Assistant Secretary of the Navy (Research, Development and Acquisition)
commented that the Department of the Navy recognizes that the DoD Office of the
Inspector General provides a much-needed service to the DoD and that differences in the
interpretation of the FAR are part of the process in accomplishing these types of audits.
The Assistant Secretary said he believed it was important for us to recognize and include
the Marine Corps’ point of view regarding this report.

Our Response
We believe the report fairly presents FAR requirements regarding EFSS/ITV acquisition
and contracting issues in findings A and B. We have fully considered Navy and Marine
Corps comments in preparing this report. On August 29, 2008, we received extensive
written comments from the Commander, MCSC on an August 22, 2008, discussion draft
version of this report. We analyzed and fully considered the MCSC comments in
preparing our September 25, 2008, draft report. We have fully considered further,
extensive comments from the Commander, MCSC dated November 10, 2008—
comments made under the cover of the November 14, 2008, Assistant Secretary of the
Navy memorandum to us. Further, we believe the report fairly presents the Marine
Corps’ disagreement with the findings. The disagreements and our response are
elaborated in the following entries.

Marine Corps Comments
The Commander, MCSC, disagreed with both audit report findings, stating that it was
evident the audit team did not consider all the facts provided by the EFSS program office
and misapplied the relevant law, regulation, and policy. The Commander believed the
report facts and findings were refuted in detail by MCSC in meetings with the audit team
at the close of the review and that the findings were extrapolated from isolated facts
rather than based on the totality of the information provided by MCSC.

The comments of the Commander, MCSC included a 69-page enclosure of detailed
responses and source documentation relating to draft report findings. The Commander
noted that the enclosure provided amplifying and clarifying information to assist the audit
and asked that the information be reviewed, incorporated into our findings, and strongly
considered in our final audit report.

Our Response
The Client Comments section of this report includes the November 14, 2008,
memorandum from the Assistant Secretary of the Navy and the November 10, 2008,


                                            33
comments of the MCSC Commander on the report findings and recommendations. We
have not included the 69-page MCSC enclosure in this report because of its length and
because the MCSC enclosure statements for the most part repeat what we considered
during the audit. However, we do highlight and address the major client comments
below. (In some cases in which the MCSC comments provided new information, we
revised the report discussion as noted below.) The 69-page enclosure included source
documents previously reviewed by the audit team and reiterated Marine Corps
conclusions and opinions about the EFSS and ITV program management and contract
award.

We strongly disagree with the MCSC Commander’s premise that the audit team did not
consider all the facts provided by the EFSS program office or misapplied relevant law,
regulation, or policy. Our audit and technical staff weighed all Marine Corps comments
and information in crafting this final report, as reviewed by our Office of General
Counsel for legal sufficiency. We disagree that MCSC meeting representations refuted
report statements or that report findings were extrapolated from isolated facts.

Client Comments on Finding A
Marine Corps Comments on EFSS and ITV Program Challenges
and Accomplishments
The Commander, MCSC stated the audit report should acknowledge the major challenges
and accomplishments of the EFSS and ITV programs, including that the EFSS and ITV
are the only systems certified for internal MV-22 Osprey transport and that EFSS is the
first and only major caliber ammunition system to obtain Insensitive Munitions
compliance certification.

Our Response
We agree that the EFSS and ITV programs have been certified by the Naval Air Systems
Command for MV-22 Osprey internal transport and that the EFSS has been certified
compliant by the Weapon System Explosive Safety Review Board. In addition, we have
added information to the background and finding A to show the Marine Corps has
corrected most EFSS and ITV technical problems as reflected in 2008 MCOTEA
determinations that the systems are operationally effective and suitable and that the
Milestone Decision Authority approved the full-rate production and fielding decision for
the EFSS and ITV programs.

Marine Corps Comments on EFSS and ITV System Development
The Commander, MCSC stated that EFSS and ITV system development efforts
integrated existing technology available on the commercial market and that the systems
therefore constituted nondevelopmental items as defined by the FAR. The Commander
stated the EFSS/ITV request for proposal required offerors to submit a production
representative sample, not prototypes, and the proposed EFSS/ITV systems demonstrated
at the time of source selection that they could meet the MV-22 transportability KPP. The




                                           34
Commander also stated that the systems did not require major additional vehicle design
development to meet MV-22 KPPs.

Our Response
We agree that many aspects of the EFSS and ITV systems are nondevelopmental items
and so state in the report. However, the EFSS and ITV vehicles required major redesign
(not minor modification) to meet KPPs. As noted in our report, the EFSS demonstration
test report showed that no vehicle candidate met the vertical transportability KPP. The
ITV Single Acquisition Management Plan stated the request for proposal required
offerors to submit a production-representative sample vehicle. But because of the
compressed nature of the solicitation, offerors submitted prototype vehicles that had to
evolve to meet program requirements. By accepting those vehicles, the Government has
assumed a degree of cost risk in ensuring that the EFSS and ITV systems can meet
program requirements. Development problems were also acknowledged in a June 2007,
low-rate initial production contract modification that stated many major subsystems still
required continuous monitoring and critical analysis and that EFSS and ITV subsystem
design changes posed significant challenges because of minimum size, weight, and center
of gravity constraints mandated by the MV-22 Osprey transportability requirements.

Marine Corps Comments on EFSS and ITV Milestone C Approval
The Commander, MCSC disagreed with the report conclusion that the Milestone C
decision should not have been approved. The Commander stated that, by May 2007, all
EFSS and ITV KPPs and critical requirements had been successfully demonstrated, and
MV-22 and CH-53 flight certifications had been approved. The Commander also stated
that MCSC continues to work with the Defense Contract Management Agency and the
contractor to address areas of manufacturing quality. He noted the EFSS and ITV
programs now have stable designs and that changes can be made only following the
configuration management process.

Our Response
The Marine Corps Milestone Decision Authority approved the entrance of the EFSS and
ITV programs into the Production and Deployment (Milestone C) Phase before the
systems had integrated subsystems, completed detailed design, reduced system-level risk,
and demonstrated ability to operate within the approved KPPs. Because EFSS and ITV
detailed design was not complete and the systems had not demonstrated acceptable
performance in developmental test and evaluation, approval to enter Milestone C should
not have been granted. Although MCOTEA had completed successful testing of all KPPs
and critical requirements by May 2007, the testing occurred long after the June 2005
Milestone C approval. Naval Air Systems Command certification of EFSS and ITV for
MV-22 and CH-53 internal transportability also occurred after the Milestone C approval.
We agree that the EFSS and ITV now have achieved stable designs after completion of
MCOTEA testing and the establishment of the product baselines. We modified the
finding discussion to note that the Marine Corps has corrected most EFSS and ITV
technical problems as reflected in 2008 MCOTEA determinations that the systems are
operationally effective and suitable.



                                           35
Marine Corps Comments on EFSS and ITV Acquisition Program
Baselines
The Commander, MCSC stated that all Acquisition Program Baseline schedule and cost
growth changes were submitted to and approved by the Milestone Decision Authority.
The Commander noted that several EFSS/ITV costs, including contractor logistics
support, EFSS follow-on test and evaluation, and new equipment training, were based on
scope increases. The Commander also stated that the estimate for EFSS and ITV unit
costs contained in the life-cycle cost estimates completed in December 2006 were still
valid.

Our Response
We agree that the Milestone Decision Authority was aware of the status of the programs
and approved changes to the Acquisition Program Baseline. However, the MCSC
EFSS/ITV program office was not responsive to our requests for a breakdown of cost
growth and scope increases. While we agree that operational assessment and follow-on
test and evaluation costs could be viewed as scope increases, those costs also directly tie
to in-scope work required to correct and verify design deficiencies. We indicated in the
report that training on new equipment was a scope increase. We also agree that the
December 2006 life-cycle cost estimate is still valid.

Client Comments on Finding B
Marine Corps Comments on EFSS and ITV Technical
Evaluations
The Commander, MCSC disagreed with report statements that MCSC did not award the
EFSS and ITV contract in accordance with the FAR and that MCSC source selection
personnel did not adequately document and disclose all technical evaluation criteria in the
solicitation. The Commander noted that all evaluation criteria and their relative
importance were set forth in the solicitation and in the source selection plan in
compliance with the FAR. The Commander also noted that the EFSS program was
conducted in strict accord with applicable acquisition laws and regulations. The
Commander stated that our report focused on the EFSS vehicle. He noted that the final
procurement decision was reasonable and defensible and implied that we would have
reached that conclusion had our audit recognized that the EFSS system was made up of a
number of components, including the vehicle and the attached weapon. He also noted
that the solicitation and underlying evaluation criteria required assessment of the total
system. The Commander stated that the EFSS/ITV program’s cost growth and schedule
slippage did not alter the reasonableness of the initial procurement decision. The
Commander also stated that, although the program’s assessment of risk could be
questioned, it was different to state that the contract had been awarded in violation of
law.

Our Response
Our report does not state that the contract was awarded in violation of the law. We do
state that MCSC did not award the EFSS and ITV contract in accordance with the FAR


                                             36
because EFSS/ITV solicitation evaluation criteria did not disclose that a performance
specification did not rise to the level of a subfactor unless the specification was a KPP.
Therefore, source selection personnel did not adequately document and disclose the
importance of the performance specifications to the subfactors in the solicitation. The
SSA should have ensured consistency among the solicitation requirements and evaluation
factors and subfactors in accordance with FAR 15.303 to avoid a misunderstanding of the
evaluation criteria among the contract offerors. In addition, the MCSC could produce
only an unsigned business clearance memorandum that was incomplete and did not state
that the Government received a fair and reasonable price. We do not agree that our report
specifically focused on the EFSS vehicle at the expense of other EFSS/ITV system
components. We reviewed the proposals, the underlying evaluation criteria, and source
selection documents for the entire EFSS program, which included the vehicle and all
components of the weapon system. Our analysis of the initial procurement decision was
independent and did not take into consideration the subsequent EFSS/ITV program cost
growth and schedule slippage.

Marine Corps Comments on Unbalanced Pricing
The Commander, MCSC disagreed with draft report statements that MCSC source
selection personnel did not adjust or eliminate the GDOTS offer for an apparent underbid
and unbalanced pricing on the ITV portion of the contract. The Commander noted
that, in accordance with the FAR, cost realism analysis may be used in performance risk
assessments and responsibility determinations, but that offered prices should not be
adjusted by the Government as a result of the analysis.

Our Response
Based on the MCSC comments, our Office of General Counsel performed further legal
analysis of FAR requirements and applicable case law regarding unbalanced pricing. As
a result, we deleted from the final report statements regarding the apparent underbid and
potential unbalanced pricing.

Client Comments on Appendix C
Marine Corps Comments on Audit Response to Rae-Beck
Comments Regarding MCSC Information Paper
The Commander, MCSC, stated the July 16, 2007, Rae-Beck letter contained allegations,
questions, and observations. The Commander believed that our audit response merely
verified facts involved in the program and did not substantiate Rae-Beck allegations. The
Commander stated that it was the SSA who made the decision to adopt “mutuality” as an
evaluation factor for this procurement. The Commander also disagreed with our
statement that American Growler did not meet screening criteria listed in the
requirements analysis and noted that the Jacob Sverdrup purchase of two vehicles for
testing was from Carolina Growler, not American Growler, Inc.




                                           37
Our Response
We revised the final report Audit Response to the Rae-Beck comments regarding the
MCSC information paper to eliminate confusion between our analysis of the Rae-Beck
concerns and statements of fact. We amended the report to state the SSA made the
decision to adopt mutuality as an evaluation factor for this procurement at the direction of
the Commander, MCSC. We also noted the Jacobs-Sverdrup vehicle purchase was from
the American Growler subsidiary, Carolina Growler. In discussions with the audit team
about the purchase and testing of the two test vehicles, MCSC personnel used the terms
Carolina Growler and American Growler interchangeably. As stated in our report, the
ITV Requirements Analysis Report noted that the American Growler vehicles did not
meet the screening criteria in the requirements analysis. MCSC was unable to provide
documentation or an explanation as to why the American Growler vehicles were chosen
for the limited vehicle test.




                                            38
Department of the Navy Comments




                   39
            Final
           Report
          Reference




     Not included
     because of
     length and
     format.




40
41
42
43
        Final
       Report
      Reference




     Not included
     because of
     length and
     format.




44
